TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Full Compliance With Trusted
                      Internet Connection Requirements Is
                      Progressing; However, Improvements
                           Would Strengthen Security



                                      September 17, 2013

                              Reference Number: 2013-20-107




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


FULL COMPLIANCE WITH                                 activity on TIC equipment, had not completed
TRUSTED INTERNET CONNECTION                          actions to fully implement TIC requirements for a
REQUIREMENTS IS PROGRESSING;                         Data Loss Prevention program, did not have
HOWEVER, IMPROVEMENTS WOULD                          sufficient staff with the required security
                                                     clearance and proper locations for handling
STRENGTHEN SECURITY
                                                     classified information, and was not regularly
                                                     scanning TIC equipment to ensure timely
Highlights                                           discovery and mitigation of vulnerabilities or
                                                     misconfigurations.
Final Report issued on                               WHAT TIGTA RECOMMENDED
September 17, 2013
                                                     TIGTA recommended that the Chief Technology
                                                     Officer ensure that the IRS: 1) implements the
Highlights of Reference Number: 2013-20-107
                                                     capture and review of administrator activity on
to the Internal Revenue Service Chief
                                                     TIC devices; 2) fully implements the selected
Technology Officer.
                                                     tool for the Data Loss Prevention program upon
IMPACT ON TAXPAYERS                                  successful testing; 3) obtains Top Secret
                                                     Sensitive Compartmented Information
The Trusted Internet Connection (TIC) initiative     clearances for IRS operational employees who
is one of the Administration’s three priorities to   can receive and react to classified information
improve cybersecurity and the security of            on a 24/7 basis; 4) completes implementation
Federal information systems. The TIC initiative      of proper locations for handling classified
aims to improve agencies’ security posture and       information at TIC locations; 5) implements
incident response capabilities through enhanced      vulnerability and configuration management
monitoring and situational awareness of all          scanning on TIC equipment and mitigates
external network connections. The IRS has            reported findings; and 6) updates all TIC
progressed steadily towards implementing TIC         equipment to the most current operating
requirements; however, additional improvements       systems approved for use within the IRS.
could strengthen the security posture of its TICs.
Security weaknesses within these TICs could          The IRS agreed with all of our recommendations
expose taxpayer data to unauthorized access or       and has planned appropriate corrective actions
loss.                                                to address them. The IRS plans to implement
                                                     audit logging and review administrator activity on
WHY TIGTA DID THE AUDIT                              TIC devices. The IRS also plans to fully
                                                     implement TIC requirements related to Data
This audit was included in our Fiscal Year 2013
                                                     Loss Prevention, obtain security clearances for
Annual Audit Plan and addresses the major
                                                     operational employees, and complete
management challenge of Security for Taxpayer
                                                     implementation of proper locations for handling
Data and Employees. The objective of this audit
                                                     classified information at TIC locations. In
was to evaluate the IRS’s three TICs to ensure
                                                     addition, the IRS plans to implement
that the connections comply with Department of
                                                     vulnerability scanning on TIC equipment and
Homeland Security requirements. The
                                                     update all TIC equipment to the most current
Administration expects Federal agencies to
                                                     operating systems.
achieve 100 percent compliance with TIC
requirements by Fiscal Year 2014.
WHAT TIGTA FOUND
Although the IRS has made good progress
implementing the TIC requirements, our review
revealed areas where improvements could
strengthen the security posture of the TICs. For
example, the IRS was not logging administrative
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Full Compliance With Trusted Internet
                             Connection Requirements Is Progressing; However, Improvements
                             Would Strengthen Security (Audit # 201320005)

 This report presents the results of our review of the Internal Revenue Service’s three Internet
 connections to ensure compliance with the Department of Homeland Security requirements for
 Trusted Internet Connections. This review is part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Alan R. Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                           Full Compliance With Trusted
                                 Internet Connection Requirements Is Progressing;
                                However, Improvements Would Strengthen Security




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Full Compliance With Trusted Internet Connection
          Requirements Is Progressing......................................................................... Page 3
          Additional Improvements Would Strengthen Security ................................. Page 4
                    Recommendations 1 through 3:........................................... Page 8

                    Recommendations 4 through 6:........................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Management’s Response to the Draft Report ...................... Page 14
                     Full Compliance With Trusted
           Internet Connection Requirements Is Progressing;
          However, Improvements Would Strengthen Security




                    Abbreviations

DHS           Department of Homeland Security
DLP           Data Loss Prevention
IRS           Internal Revenue Service
OMB           Office of Management and Budget
SCIF          Sensitive Compartmented Information Facility
TIC           Trusted Internet Connection
US-CERT       United States Computer Emergency Response Team
                                      Full Compliance With Trusted
                            Internet Connection Requirements Is Progressing;
                           However, Improvements Would Strengthen Security




                                            Background

In November 2007, the Office of Management and Budget (OMB) issued Memorandum
M-08-05, Implementation of Trusted Internet Connections (TIC), which introduced the TIC
initiative, one of the Administration’s three priorities1 for improving cybersecurity and the
security of Federal information systems. The primary
goals of the TIC initiative are (1) to consolidate and
                                                                      The TIC initiative is an
secure Federal agency external connections using a
                                                                    Administration priority for
common set of security controls and (2) to improve the
                                                                     improving the security of
Federal Government’s incident response capability. To
                                                                   Federal information systems.
achieve these goals, the initiative has the following
objectives:
       Reduce and consolidate external connections, including connections to the Internet,
        across the Federal Government.
       Define and maintain baseline security capabilities at TIC access points.
       Establish a compliance program to monitor agency adherence to TIC policy.
The Administration expects executive branch departments and agencies to achieve 100 percent
compliance with TIC requirements by the end of Fiscal Year2 2014. In Memorandum M-08-27,3
the OMB stated that to be considered compliant with the TIC initiative, Federal agencies that
implement TICs must:
        Comply with the capabilities published by the OMB as part of the TIC initiative.4
        Continue the reduction and consolidation of external network connections.
        Participate in the National Cyber Protection System5 program.


1
  The other two are continuous monitoring of Federal information systems and strong authentication with Homeland
Security Presidential Directive 12–compliant credentials for logical access control.
2
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
3
  OMB M-08-27, Guidance for Trusted Internet Connection Compliance (Sept. 30, 2008), provides additional
guidance and clarification to Federal departments and agencies on compliance with the TIC initiative requirements.
4
  The Department of Homeland Security, in collaboration with Federal agencies, developed the TIC Reference
Architecture v2.0, which introduces new capabilities and clarifies existing mandatory critical capabilities. In
addition to mandatory critical capabilities, the TIC Reference Architecture v2.0 includes recommended capabilities
based on evolving technologies and threats.
5
  The National Cyber Protection System (operationally known as Einstein) is a Governmentwide intrusion detection
system deployed at TIC access points.
                                                                                                          Page 1
                                       Full Compliance With Trusted
                             Internet Connection Requirements Is Progressing;
                            However, Improvements Would Strengthen Security


The Department of Homeland Security (DHS) has been tasked with managing and overseeing
the OMB’s TIC initiative for the Federal Government and ensuring that Federal agencies reduce
their total number of external Internet connections and consolidate them through approved TIC
access points.6 The DHS Federal Network Resilience Division’s Cybersecurity Assurance
Branch annually assesses the state of operational readiness and cybersecurity risk of unclassified
networks and systems across the Federal civilian executive branch. The Cybersecurity
Assurance Branch is responsible for coordinating annual Cybersecurity Capability Validations7
using an objective, repeatable, and consistent validation assessment method to measure the
degree of adherence to the TIC initiative and OMB-published Federal cybersecurity
requirements.
The DHS conducted its most recent annual Cybersecurity Capability Validations on the
Department of the Treasury’s various TICs in February 2013. The Department of the Treasury
has implemented seven TICs, three of which were implemented by the Internal Revenue
Service (IRS) at its computing centers in Detroit, Michigan; Memphis, Tennessee; and
Martinsburg, West Virginia. During its 2013 review, the DHS reported that the Department of
the Treasury’s composite score for meeting TIC technological compliance was 92 percent, that it
had consolidated 64 percent of its connections, and that it had consolidated 81 percent of its total
external traffic flow through an approved TIC access point.
This review was performed with information obtained from the IRS Information Technology
organization located in New Carrollton, Maryland; Detroit, Michigan; Memphis, Tennessee; and
Martinsburg, West Virginia, during the period December 2012 through July 2013. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




6
  As a follow-up, OMB Memorandum M-10-28, Clarifying Cybersecurity Responsibilities and Activities of the
Executive Office of the President and the Department of Homeland Security (July 6, 2010), further defined the
DHS’s responsibility, in coordination with the OMB, to certify and enforce agency implementation of network
security operational standards and best practices and to ensure that agencies comply with Federal standards and
policies.
7
  In 2009-2010, the DHS’s Federal Network Resilience Division launched the TIC Cybersecurity Capability
Validations to assess and report agency compliance with OMB-directed guidance and criteria.
                                                                                                            Page 2
                                       Full Compliance With Trusted
                             Internet Connection Requirements Is Progressing;
                            However, Improvements Would Strengthen Security




                                       Results of Review

Full Compliance With Trusted Internet Connection Requirements Is
Progressing
Agencies that implement TICs must ensure that each TIC meets the security and technological
capabilities specified in the TIC Reference Architecture v2.0 that was issued by the DHS. The
IRS has progressed steadily towards full compliance with TIC Reference Architecture v2.0
requirements in its three TICs, which are located at the IRS computing centers in
Detroit, Michigan; Memphis, Tennessee; and Martinsburg, West Virginia. In February 2013, the
DHS conducted a Cybersecurity Capability Validation assessment of two of the IRS TICs,
located at Memphis, Tennessee, and Martinsburg, West Virginia, and reported that each met
68 (92 percent) of the 74 capabilities required. The TIC capabilities that the IRS had not met
related to requirements for:
        Multi-factor authentication for administrative access to TIC devices.
        Having at least two physically separate points of entry and separate cabling paths to
         external Internet service providers, rather than a single Internet service provider using a
         single circuit.
        Filtering inbound traffic to Web servers to protect from attacks.
        Validating domain signatures8 of e-mails received from external institutions, and
         supporting the domain-level signing of outbound e-mail.
The IRS continues to work to address gaps in order to comply with the TIC initiative’s mandated
requirements. The IRS has taken steps to correct previous gaps in meeting TIC Reference
Architecture v2.0 capabilities, such as implementing external Domain Name System Security
Extensions9 validation to protect against manipulation of Domain Name System10 data and
installing Einstein probes11 at its TIC access points to comply with intrusion detection standards.


8
  A domain signature is a digital signature added to the header of e-mail messages which allows the recipient of the
message to validate that it is from the actual sender.
9
  A technology that protects against attacks that use forged or manipulated Domain Name System data by digitally
“signing” the data to ensure that they are valid.
10
   The Domain Name System translates Internet domain and host names to Internet Protocol addresses and
implements a distributed database to store this name and address information for all public hosts on the Internet.
11
   Intrusion detection sensors that can alert the U.S. Computer Emergency Response Team in real time to the
presence of a malicious or potentially harmful activity in the Federal network traffic and provide correlation and
visualization of the derived data.
                                                                                                             Page 3
                                   Full Compliance With Trusted
                         Internet Connection Requirements Is Progressing;
                        However, Improvements Would Strengthen Security


In addition, the IRS has taken appropriate steps to identify all external connections in order to
ensure that those connections which were required to go through a TIC were in fact going
through a TIC.

Additional Improvements Would Strengthen Security
Although the IRS has made good progress implementing the TIC requirements, our review
revealed areas where improvements could strengthen security over the TICs. Specifically, the
IRS should implement audit logging of administrator activity on TIC equipment to ensure that
accountability can be established for any actions that are taken. In addition, while the IRS is
working towards compliance, actions are still needed to complete TIC requirements related to
implementing a Data Loss Prevention (DLP) program and ensuring that the IRS has sufficient
personnel in place with the required clearance and the proper locations for handling classified
information. Finally, the IRS must implement regular scanning or other automated checks to
ensure that vulnerabilities or misconfigurations are timely discovered and mitigated on TIC
equipment.

Audit logging of administrator activity on TIC devices was not occurring
The IRS was not capturing audit logs of administrator activity on TIC servers, firewalls, or
routers. Because logs were not being captured, activity by administrators on TIC devices was
not being reviewed. Audit trails maintain a record of user activity and provide a means to
establish individual accountability. TIC specifications require the IRS to maintain the logs
needed to establish an audit trail of administrator activity on TIC systems and components. IRS
policy requires administrators of IRS systems to ensure that systems are logging in compliance
with requirements. In addition, IRS policy requires Information Technology organization
security specialists to review audit logs at least weekly. Our interviews with the staff within the
IRS’s Computer Security Incident Response Capability and User and Network Services
organizations revealed confusion over who had responsibility for capturing and reviewing this
specific type of audit log. Without an effective system for the capture and review of
administrator activity, accountability for actions taken on TIC equipment cannot be established
and unauthorized activity may go undetected.

A DLP program was not in place
The DLP program is a system that is designed to detect potential data breach transmissions and
prevent them by monitoring, detecting, and blocking sensitive data while in use (endpoint
actions), in motion (network traffic), and at rest (data storage). In data loss incidents, sensitive
data are disclosed to unauthorized personnel either by malicious intent or inadvertent mistake.
Such sensitive data can come in the form of private or company information, intellectual
property, financial or patient information, credit card data, and other information depending on
the business and the industry. TIC specifications in accordance with OMB Memorandums

                                                                                              Page 4
                                      Full Compliance With Trusted
                            Internet Connection Requirements Is Progressing;
                           However, Improvements Would Strengthen Security


M-06-16, M-06-19, and M-07-1612 recommend the IRS implement a DLP program for
safeguarding Personally Identifiable Information and other sensitive information that is in the
possession of the Government and preventing its breach.
Although the IRS has a plan in place, it has not yet implemented its DLP program.13 The IRS
intends to implement a DLP solution that is able to identify, log, track, monitor, alert on, report
on, and protect sensitive agency information and Personally Identifiable Information. The IRS
has planned three releases. Release 1 will address data in motion through monitoring data
moving across the IRS information technology perimeter and identifying Personally Identifiable
Information, specifically Social Security Numbers. Release 2 will address data-at-rest by
detecting sensitive data stored on IRS databases or fileservers. Release 3 will address
data-in-use by deploying an end-user client that will allow monitoring of data being created or
manipulated on user workstations and preventing its distribution, storage, or alteration.
The IRS has selected a DLP tool and initiated testing of this tool. However, its deployment that
was scheduled for the end of Calendar Year 2013 will not be met due to funding issues. Without
an effective DLP solution in place, the IRS cannot detect potential data breaches or exfiltration
transmissions,14 putting IRS data at risk of unauthorized disclosure and loss.

A sufficient number of operational employees did not have appropriate security
clearances for handling classified information
The IRS currently does not have sufficient personnel in place with the required clearance for
handling classified information. TIC specifications require the IRS to have personnel with Top
Secret Sensitive Compartmented Information clearance. This clearance provides the individual
with the authority to report, acknowledge, and initiate actions based on ongoing cyber
investigations, intrusions, incidents, and operations that are classified at the Top Secret Sensitive
Compartmented Information level with the U.S. Computer Emergency Response Team
(US-CERT) and other cleared operational cyber components. The intent is to have at least one
qualified person with this clearance always available (on call, including weekends and holidays)
to exchange classified communications within two hours. During off hours, TICs may have
reduced staffing. Network operations center personnel working after hours may need to escalate
an incident to on-call personnel with Top Secret Sensitive Compartmented Information
clearance. While some IRS executives have the required clearance, employees at the operational
level who are available to address TIC security issues do not. The IRS had not yet requested the

12
   OMB M-06-16, Protection of Sensitive Agency Information (June 23, 2006), OMB M-06-19, Reporting Incidents
Involving Personally Identifiable Information and Incorporating the Cost for Security in Agency Information
Technology Investments (July 6, 2006), and OMB M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information (May 22, 2007).
13
   A prior report, Treasury Inspector General for Tax Administration, Ref. No. 2011-20-012, Additional Security Is
Needed for the Taxpayer Secure Email Program (Feb. 2011), recommended that the IRS deploy a data leakage
prevention system to prevent sensitive data, such as Social Security Numbers, from leaving the IRS domain.
14
   The unauthorized transmission of data from a computer to the external world.
                                                                                                           Page 5
                                      Full Compliance With Trusted
                            Internet Connection Requirements Is Progressing;
                           However, Improvements Would Strengthen Security


security clearances through the Department of the Treasury due to other priorities. Without these
security clearances at the operational level, the IRS may be unable to receive and react to
classified TIC security issues in a timely manner.

Sensitive Compartmented Information Facilities were not available for IRS TICs
The IRS does not have a Sensitive Compartmented Information Facility (SCIF) at any of its
three TIC locations. A SCIF15 is a secured area within a building that is used to process sensitive
compartmented information. Sensitive compartmented information is classified secret or top
secret information that is derived from intelligence sources, methods, or analytical processes.
All sensitive compartmented information must be processed, stored, used, or discussed in an
accredited SCIF.
TIC specifications require accredited SCIFs to be maintained within 30 minutes of each TIC
management location in order for authorized personnel to exchange classified information,
evaluate the recommendations, initiate the response, and report operational status with the
US-CERT within two hours of the notification. For example, the IRS may need to report to or
receive from the US-CERT information regarding cyberattacks, threats, or incidents that are
classified at the sensitive compartmented information level and must be handled in a properly
secured area. While the Department of the Treasury maintains a SCIF at its headquarters
building located in Washington, D.C., this facility is not within 30 minutes of the IRS TICs. The
IRS is in the process of implementing this requirement. The IRS indicated that it has
encountered challenges to implementing SCIFs that include working with the General Services
Administration to identify suitable space, selecting a contractor to complete the work, and
working with the Department of the Treasury to provide final approval after the construction is
complete. Without fully compliant SCIFs at each TIC location, the IRS may be unable to receive
and react to top secret security issues in a timely and secure manner.

Implementing required scans can further secure TIC firewalls and routers
Although the IRS has generally configured TIC firewalls and routers securely, we found
instances where firewalls or routers were not configured in compliance with required baseline
configuration settings. The IRS was not regularly scanning its TIC firewalls and routers to
identify vulnerabilities or misconfigurations. Both TIC specifications and IRS policy require
that firewalls and routers be scanned monthly to ensure that vulnerabilities or misconfigurations
are timely discovered and mitigated.
We reviewed all 38 firewalls deployed within IRS’s TIC environments and their related
66 routers. The firewalls and routers are used to move network traffic between the Internet


15
  Office of the Director of National Intelligence, Intelligence Community Directive Number 705, Sensitive
Compartmented Information Facilities (May 26, 2010), established the uniform physical and technical requirements
with which facilities must comply in order to be accredited as a SCIF.
                                                                                                        Page 6
                                  Full Compliance With Trusted
                        Internet Connection Requirements Is Progressing;
                       However, Improvements Would Strengthen Security


access provider and the IRS internal network. We found the following instances of
noncompliance.
      Administrator accounts on two of 38 firewalls did not have a password, allowing direct
       access at the highest privilege without a password. IRS policy requires all systems to
       have passwords that meet minimum requirements. Administrative accounts without
       passwords can be accessed by anyone and would provide unrestricted access to everyone
       on the computer as well as a jumping point to access other systems, increasing the risk of
       unauthorized access and exposure to sensitive data.
      Administrator passwords on 20 of 66 routers were not securely encrypted within the
       router configuration files. These routers had the “enable password” encryption scheme
       that the manufacturer had stated in 2008 should no longer be used. Passwords encrypted
       with the “enable password” scheme can readily be decrypted if access was gained to the
       configuration file or a stored copy of the configuration file. Instead, the manufacturer
       stated that all passwords on routers should use the “enable secret” routine that utilizes a
       stronger encryption routine. IRS policy requires passwords to be protected through
       encryption that meets Federal standards when stored or transmitted. Weak encryption of
       administrator passwords increases the risk of unauthorized access and disclosure of
       taxpayer data.
      Time zone configurations on two of 66 routers were not properly configured. IRS policy
       requires that routers be time-synchronized with the IRS’s authoritative time server.
       Without proper time synchronization, events that occur on these routers may not be
       accurately time stamped, making it difficult to detect attacks or investigate suspicious
       user activity.
      The system-use notification/warning banner in use on 10 of 38 firewalls and 52 of
       66 routers did not meet the IRS-approved notification/warning banner text. IRS policy
       specifies the approved text that must be displayed before granting access to an IRS
       system. The warning banner text was modified to include appropriate legal citations in
       May 2012. Not displaying the approved banner could result in authorized and
       unauthorized users not being aware that they have accessed a U.S. Government system
       that requires prior authorization and that they have forfeited their rights to privacy when
       using the specified system.
      A “deny all” rule is typically placed at the end of each Access Control List to specifically
       deny traffic that has not been permitted or denied earlier within that Access Control List.
       On two of 66 routers we reviewed, a “deny all” rule was misplaced in the middle of an
       Access Control List. This misplacement prevented legitimate traffic from reaching the
       rule that would have permitted the traffic to transit the router.
The IRS informed us that it corrected the misconfigurations on the routers and devices that we
reported. The lack of regular scanning or other means for automated checks to verify

                                                                                            Page 7
                                   Full Compliance With Trusted
                         Internet Connection Requirements Is Progressing;
                        However, Improvements Would Strengthen Security


compliance on firewalls and routers led to the incorrect configurations we found. Without
regular scanning or automated checks, vulnerabilities may not be timely discovered and fixed,
ultimately decreasing the security posture of the IRS network.

Operating systems were outdated on certain TIC servers
The IRS has eight TIC servers running outdated versions of the Linux Red Hat operating system.
IRS policy requires that equipment be maintained at proper configuration baselines. However,
the IRS organization responsible for updating these systems did not sufficiently monitor them to
ensure that operating systems were updated in a timely manner. Outdated operating systems
increase the risk of attacks that exploit known vulnerabilities, resulting in unauthorized access or
loss of IRS data.

Recommendations
The Chief Technology Officer should ensure that the IRS:
Recommendation 1: Implements the capture and review of administrator activity on TIC
devices, including users accessing these devices, logon and logoff times, and activities conducted
during access.
       Management’s Response: The IRS agreed with this recommendation. The User and
       Network Services organization will engage the Cybersecurity Enterprise Security Audit
       Trail team to facilitate gap analysis of existing Enterprise Security Audit Trail audit and
       review capabilities and fully implement the capture and review of administrator activity
       on TIC devices.
Recommendation 2: Fully implements the selected DLP tool upon successful testing.
       Management’s Response: The IRS agreed with this recommendation. The IRS’s
       current implementation of the DLP tool to monitor outbound e-mail and web traffic is
       scheduled to be completed in December 2014.
Recommendation 3: Obtains Top Secret Sensitive Compartmented Information clearances
for IRS operational employees who can receive and react to classified information on a 24/7
basis.
       Management’s Response: The IRS agreed with this recommendation. The
       Cybersecurity Computer Security Incident Response Center requires access to Top Secret
       Sensitive Compartmented Information on specific ongoing real-world classified cyber
       investigations, intrusions, incidents, and operations and will continue to work with the
       Department of the Treasury to obtain and clear appropriate staff.




                                                                                             Page 8
                                 Full Compliance With Trusted
                       Internet Connection Requirements Is Progressing;
                      However, Improvements Would Strengthen Security


Recommendation 4: Completes implementation of the SCIFs at TIC management locations.
      Management’s Response: The IRS agreed with this recommendation. The
      Cybersecurity organization understands the importance of appropriate classified facilities
      and previously initiated planning and design work with the Real Estate and Facilities
      Management organization at the two primary IRS Security Operations Centers which also
      serve as TIC management locations. The Cybersecurity organization will monitor the
      progress and work with the Real Estate and Facilities Management organization to
      complete the implementation of the SCIFs at these locations.
Recommendation 5: Implements vulnerability and configuration management scanning on
firewalls and routers and mitigates reported findings.
      Management’s Response: The IRS agreed with this recommendation. The User and
      Network Services organization will engage the Cybersecurity organization to perform
      vulnerability scanning on TIC firewalls and routers. Additionally, the User and Network
      Services organization will verify that all TIC routers, switches, and firewalls are currently
      reporting to Hewlett Packard Network Automation for biweekly Guidelines, Standards,
      and Procedures compliance validation checking.
Recommendation 6: Updates all TIC equipment to the most current operating systems
approved for use within the IRS.
      Management’s Response: The IRS agreed with this recommendation. The IRS will
      review TIC inventory and current operating system releases and identify any systems that
      are not running the current release approved for use within the IRS. Following the
      review of the systems, the User and Network Services organization will engage the
      system vendor to analyze TIC components for any known vulnerabilities and recommend
      updated releases for any systems running outdated software.




                                                                                            Page 9
                                  Full Compliance With Trusted
                        Internet Connection Requirements Is Progressing;
                       However, Improvements Would Strengthen Security


                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of our review was to evaluate the IRS’s three TICs to ensure that the
connections complied with the Department of Homeland Security requirements. To accomplish
this objective, we:
I.     Determined the effectiveness of IRS efforts to identify all existing external connections
       and route those connections through the TICs.
       A. Assessed whether the IRS is properly applying the definition of “external connection”
          in accordance with the TIC Reference Architecture v2.0.
       B. Assessed whether the IRS effectively identified all of its external connections.
       C. Determined whether any criteria exist that allows certain external connections to not
          go through a TIC.
II.    Determined the effectiveness of IRS efforts to comply with TIC Reference Architecture
       v2.0 requirements as well as selected security controls protecting the TICs.
       A. Identified Federal requirements for implementation and configuration of each TIC
          component.
       B. Reviewed the Cybersecurity Capability Validation Report issued by the DHS in
          March 2013 that provided an assessment of TIC compliance for two of the IRS TICs.
          We did not verify or validate the reported results.
       C. Determined the effectiveness of security controls over TIC components.
          1. Verified whether operating systems had been properly updated.
          2. Verified whether access controls were in place.
          3. Verified whether audit trails were captured and reviewed.
          4. Reviewed all 38 TIC firewalls and their 66 related routers to verify whether they
             were properly configured. Because scanning reports were generally not available,
             we extracted and reviewed configuration files directly from the firewalls and
             routers.




                                                                                             Page 10
                                      Full Compliance With Trusted
                            Internet Connection Requirements Is Progressing;
                           However, Improvements Would Strengthen Security


             5. Verified whether Domain Name System Security Extensions1 was in place.
             6. Verified whether a network intrusion detection system was in place and reports
                and logs were reviewed.
             7. Determined whether a DLP program was in place.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies and procedures for the
identification and control of external network connections and for ensuring required security
controls are implemented on TIC equipment. We evaluated these controls by reviewing IRS,
DHS, and OMB policies; interviewing IRS personnel; and reviewing IRS TIC documentation
and device configurations.




1
 A technology that protects against attacks that use forged or manipulated Domain Name System data by digitally
“signing” the data to ensure that they are valid.
                                                                                                        Page 11
                                 Full Compliance With Trusted
                       Internet Connection Requirements Is Progressing;
                      However, Improvements Would Strengthen Security


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Bret Hunter, Senior Auditor
Sam Mettauer, Information Technology Specialist
Larry Reimer, Information Technology Specialist




                                                                                     Page 12
                                Full Compliance With Trusted
                      Internet Connection Requirements Is Progressing;
                     However, Improvements Would Strengthen Security


                                                                            Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 13
                  Full Compliance With Trusted
        Internet Connection Requirements Is Progressing;
       However, Improvements Would Strengthen Security


                                                  Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
           Full Compliance With Trusted
 Internet Connection Requirements Is Progressing;
However, Improvements Would Strengthen Security




                                                    Page 15
           Full Compliance With Trusted
 Internet Connection Requirements Is Progressing;
However, Improvements Would Strengthen Security




                                                    Page 16
           Full Compliance With Trusted
 Internet Connection Requirements Is Progressing;
However, Improvements Would Strengthen Security




                                                    Page 17
